Department of Homeland Security
   Ofﬁce of Inspector General

        DHS Has Made Improvements on the 

        Security Program For Its Intelligence 

                     Systems 


              (Unclassified Summary) 





OIG-11-24                                 January 2011
                      Office of Inspector General 

DHS Has Made Improvements on the Security Program For Its Intelligence Systems

                               OIG-11-24



We reviewed the Department of Homeland Security’s enterprise-wide security program
and practices for its Top Secret/Sensitive Compartmented Information intelligence
systems. Pursuant to Federal Information Security Management Act of 2002, we
reviewed the department’s security management, implementation, and evaluation of its
intelligence activities, including its policies, procedures, and system security controls for
enterprise-wide intelligence systems. In doing so, we assessed the department’s Plan of
Action and Milestones, certification and accreditation, and incident reporting processes,
as well as its security training and awareness program.

The department continues to maintain an effective enterprise-wide information security
management program for its intelligence systems. Overall, information security
procedures have been documented and adequate security controls have been
implemented. Nonetheless, management oversight and operational issues remain
regarding the effectiveness of the program. We have concerns with the documentation
for the Coast Guard Intelligence Support System certification and accreditation package
and the information system security training and awareness program for intelligence
personnel. Also, we identified security issues with the Classified Local Area Network
and Coast Guard Intelligence Support System. We recommended that the Under
Secretary for Intelligence and Analysis address the open recommendations identified
during our review. The department concurred with all four recommendations. (OIG-11­
XX, January 2011, ITA)




                                              1

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
